TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Current Practices Might Be Preventing Use of
                the Most Advantageous Contractual Methods
                       to Acquire Goods and Services



                                        February 10, 2009

                              Reference Number: 2009-10-037




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              February 10, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                     (for) Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Current Practices Might Be Preventing Use of the
                                Most Advantageous Contractual Methods to Acquire Goods and
                                Services (Audit # 200810012)

 This report presents the results of our review of the selection of contract type. The overall
 objective of this review was to determine whether the Internal Revenue Service (IRS) is using
 appropriate contract types, as presented in and directed by the Federal Acquisition Regulation
 (FAR),1 to accomplish its mission of tax administration. The review was requested by the IRS
 Office of Procurement. It was also part of the Treasury Inspector General for Tax
 Administration Fiscal Year 2008 Annual Audit Plan coverage under the major management
 challenge of Erroneous and Improper Payments.

 Impact on the Taxpayer
 Cost-reimbursement contracts, which reimburse contractors for all their costs, represent the
 highest monetary risk to the Federal Government. In our sample of 40 contracts, we found that
 only 2 were negotiated on a fully firm fixed-price basis (lowest monetary risk) and
 33 were awarded on a cost-reimbursement basis. We also identified little coordination between
 program offices and the IRS Office of Procurement regarding selection of the most advantageous
 contract type prior to the program offices submitting their requirements. The IRS’ predisposition
 to use cost-reimbursement contracts could result in inefficient use or misuse of taxpayer funds.




 1
     48 C.F.R. ch. 1 (2006).
                               Current Practices Might Be Preventing Use of the
                                 Most Advantageous Contractual Methods to
                                         Acquire Goods and Services



Synopsis
We reviewed a sample of 40 contracts–representing a total of approximately $339 million–
negotiated by the IRS with private vendors between February 2007 and January 2008.
Thirty-three (83 percent) of the 40 contracts were negotiated to reimburse contractors for costs,
time and materials expenses, and/or labor hours incurred. These types of contracts present a
greater risk of the IRS paying more funds than necessary. Five of the contracts did contain
fixed-price elements in addition to reimbursing the contractors for some costs or time and
materials expenses incurred.
Overall, the contract types we reviewed were not improper based on their associated statements
of work2 and the definitions of contract types in the FAR. However, improved controls in three
areas related to the coordination and planning of the contract type prior to award could facilitate
a better review and selection of the contract type. First, contract files lack appropriate
justification for the selection of contract type and methodology. According to the FAR,
Contracting Officers are required, with limited exceptions, to include in each contract file
documentation to show why the particular contract type was selected. However, in only 9 of the
40 contracts reviewed, the Contracting Officers’ written determinations explaining their
decisions to award a contract included a rationale as to why a less risky contract type could not
have been selected. In addition, the Office of Procurement issues a call to the program offices to
complete an Advanced Acquisition Planning Agreement. These Agreements contain information
addressing the appropriateness of using Performance-Based Acquisition methods in proposed
contracts, which could affect contract type. The Agreements were not submitted by the program
office to the Office of Procurement in 6 (15 percent) of the 40 contracts. In the 32 forms that
were submitted, use of Performance-Based Acquisition methods was not addressed for 9
(28 percent) of the contracts.
Second, contract type decisions are being made within the program offices rather than in
collaboration with the Contracting Officers. For all 40 contracts reviewed, we found that the IRS
program office selected the type of contract prior to sending the requisition to the Office of
Procurement. Office of Procurement personnel stated that the statements of work provided by
the program offices are generally directed toward a certain contract type, typically
cost-reimbursement plus a fixed fee. The FAR states that the planner should coordinate with the
Contracting Officer in all acquisition planning. This would include discussing the appropriate
contract type to ensure successful performance and the best value for the Federal Government.

2
 The portion of a contract that describes the actual work to be done by the contractor by means of 1) specifications
or other minimum requirements, 2) quantities, 3) performance dates, 4) time and place of performance of services,
and 5) quality requirements. The statement of work is the key element in deciding the selection of a contract type.
The level of detail, clarity, and identification of performance objectives and expectations in the statement of work
drive all other conditions of the contract, including pricing structure, contractor’s entitlement to payment, and level
of contract administration.
                                                                                                                          2
                         Current Practices Might Be Preventing Use of the
                           Most Advantageous Contractual Methods to
                                   Acquire Goods and Services


For 38 of the 40 contract files we reviewed, the IRS was unable to provide documentation of any
discussions of the contract type between the program office and the Contracting Officer assigned
to oversee the procurement prior to the submission of the statement of work to the Contracting
Officer. While choosing the contract type should be a cooperative effort between the program
manager and the Contracting Officer, ultimately it is the Contracting Officer who has the sole
authority to enter into a contract on the Federal Government’s behalf, including negotiation of
contract type.
Finally, cost-reimbursement contracts are used routinely, and little effort is made to convert
follow-on work to less risky contract types. Eighteen of the 40 contracts we reviewed contained
operations and/or maintenance as part of the contract. However, the operations and/or
maintenance elements of the contract were fixed-price in only 4 (22 percent) of the 18 contracts.
The FAR states that cost-reimbursement contracts should be used only when uncertainties
involved in contractor performance do not permit costs to be estimated with sufficient accuracy
to use any type of fixed-price contract. For example, the longer a contract for maintenance
services goes on, the better the agency is able to estimate the monthly costs, such as those
associated with routine operations and/or maintenance, which might enable the Contracting
Officer to issue subsequent procurement actions as fixed-price.
In January 2008, the Office of Procurement established a Contract Review Board to review
modernization and information technology requisitions that meet certain criteria prior to award
of a contract. In addition, in April 2008, the Office of Procurement issued a Policy and
Procedure Memorandum establishing an executive review process in coordination with
appropriate program personnel for any proposed acquisitions that exceed $10 million and are
other than firm fixed-price. Because the Contract Review Board and the executive review
process were implemented after the period of our audit, we did not review any actions that might
have gone through these new processes.

Recommendations
We recommended that the Director, Procurement, ensure that Contracting Officers document the
contract file with their detailed justification for awarding a cost-reimbursement contract and/or a
contract that does not use Performance-Based Acquisition methods. The Deputy Commissioner
for Operations Support and the Chief, Agency-Wide Shared Services, should establish and
implement guidance that requires members of the acquisition team, including Office of
Procurement and program office personnel, to meet and coordinate prior to writing the statement
of work to ensure that the best value contract type can be negotiated. Finally, the Deputy
Commissioner for Operations Support should require the program offices to routinely review
contracts prior to exercising option years or recompeting the contracts for follow-on work, for
the possibility of converting all or portions of the contracts to less risky contract types.


                                                                                                    3
                         Current Practices Might Be Preventing Use of the
                           Most Advantageous Contractual Methods to
                                   Acquire Goods and Services



Response
IRS management fully agreed with our first two recommendations and partially agreed with the
third recommendation. To ensure that the Contracting Officers document their decisions for
awarding a cost-reimbursement contract and/or a contract that does not use Performance-Based
Acquisition methods, the Office of Procurement Policy is developing templates for documenting
contract type decisions and rationale when Performance-Based Acquisition methods are not
used. The Deputy Commissioner for Operations Support and the Chief, Agency-Wide Shared
Services, have issued a memorandum emphasizing the use of the “7 steps to Performance-Based
Acquisition.” In addition, a module entitled “Types of Work Statements, Appropriate Contract
Types and Risk” will be included in the annual Advance Acquisition Planning conference to
emphasize the importance of the acquisition team selecting the appropriate contract type. In
Fiscal Year 2008, the Office of Procurement established a Contract Review Board in the Office
of Information Technology Acquisition that reviews all information technology acquisitions
meeting established dollar thresholds. The Contract Review Board reviews the rationale for
contract type and any justification for not using Performance-Based Acquisition methods.
Finally, IRS management agreed that contracts should be reviewed when recompeting for
follow-on work to less risky contract types, but disagreed with changing the contract type at the
time of exercising an option because a material contract change could result in possible violation
of the Competition in Contracting Act. The IRS will look for opportunities to use firm
fixed- price contracts on an ongoing basis. Management’s complete response to the draft report
is included as Appendix IV.

Office of Audit Comment
We would like to clarify our third recommendation. If the existing contract type is no longer in
the best interest of the Government, the option should not be exercised and the contract should
be recompeted. We are not suggesting that the IRS unilaterally change contract type before
exercising option years.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations), at (202) 622-8500.




                                                                                                   4
                                  Current Practices Might Be Preventing Use of the
                                    Most Advantageous Contractual Methods to
                                            Acquire Goods and Services




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Contract Files Lack Appropriate Justification for the Selection of
          Contract Type and Methodology ..................................................................Page 4
                    Recommendation 1:........................................................Page 6

          Contract Type Decisions Are Being Made Within the Program
          Offices Rather Than in Collaboration With Contracting Officers................Page 6
                    Recommendation 2:........................................................Page 7

          Cost-Reimbursement Contracts Are Used Routinely, and Little Effort
          Is Made to Convert Follow-On Work to Less Risky Contract Types...........Page 8
                    Recommendation 3:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Management’s Response to the Draft Report ......................Page 15
       Current Practices Might Be Preventing Use of the
         Most Advantageous Contractual Methods to
                 Acquire Goods and Services




                Abbreviations

AAPA      Advance Acquisition Planning Agreement
CRB       Contract Review Board
FAR       Federal Acquisition Regulation
IRS       Internal Revenue Service
PBA       Performance-Based Acquisition
SOW       Statement of Work
                          Current Practices Might Be Preventing Use of the
                            Most Advantageous Contractual Methods to
                                    Acquire Goods and Services




                                       Background

As of March 31, 2008, the Internal Revenue Service (IRS)
Office of Procurement was responsible for administering                 No single contract type is
709 contracts of varying types, representing $34 billion. A             right for every contractual
                                                                                 situation.
wide selection of contract types is available to the Federal
Government to provide needed flexibility in acquiring the large
variety and volume of supplies and services required by Federal agencies. When an agency
needs to procure goods and services, one of the key early decisions is the type of contract to use
(i.e., the form or structure the contract will take). The type of contract determines how the
contractor will be paid during the term of the contract and what the contractor’s responsibilities
and level of risk are for performance. Consequently, choosing the appropriate contract type is
essential to successful performance and obtaining the best value for the Federal Government.
However, no single contract type is right for every contractual situation. Rather, selection must
be made on a case-by-case basis considering contract risk and incentives for contractor
performance.
There are two broad categories for the type of contract:
     •   Fixed-price – the contractor is paid a fixed price, regardless of how much it costs the
         contractor to deliver the goods and/or services. Consequently, the contractor has full
         responsibility for the performance costs and resulting profit (or loss), and the financial
         risk to the Federal Government is limited. Use of the firm fixed-price contract type is
         preferred when possible.
     •   Cost-reimbursement – the contractor is paid a fee in addition to being reimbursed for
         direct costs incurred in the performance of the contract. Consequently, the contractor
         has minimal incentive to keep costs low, and the financial risk to the Federal
         Government is increased.
In between these two broad categories are various contract types in which the contractor’s
responsibilities for the performance costs and the profit or fee incentives that are offered are
tailored to the uncertainties involved in contract performance. Contract type options include a
cost-plus-incentive or award-fee contract, which reimburses the contractor for costs incurred
while tying additional payments to the contractor’s performance. Time and materials contracts
reimburse the contractor for the cost of materials in addition to paying a fixed, hourly rate for
time spent performing services for the Federal Government. The fixed hourly rate includes
wages, overhead, general and administrative expenses, and profit. Because the profit is already
included in the hourly rate, there is no other positive profit incentive for the contractor to control
costs in a time and materials contract.

                                                                                               Page 1
                              Current Practices Might Be Preventing Use of the
                                Most Advantageous Contractual Methods to
                                        Acquire Goods and Services


The Federal Acquisition Regulation (FAR)1 Part 16 stipulates that each contract file shall include
documentation to show why the particular contract type was selected. The exceptions to this
documentation include firm fixed-price acquisitions made under the simplified acquisition
procedures, contracts negotiated on a firm fixed-price basis other than those for major systems or
research and development, and awards on the set-aside portion of sealed bid partial set-asides for
small businesses.2
IRS program offices are requested by the Office of Procurement to evaluate whether
Performance-Based Acquisition (PBA) methods can be used for proposed contracts for the
coming fiscal year and to provide rationale in the acquisition plan when proposing not to use
PBA methods in planned contracts. PBA methods incorporate incentives and/or awards for
contractor high performance into contracts signed with private vendors. Using PBA methods can
affect the type of contract ultimately used to acquire services. The FAR directs agencies to use
PBA to the maximum extent possible,3 and PBA is the preferred method for acquiring services.
One reason for this is that a contract that incorporates PBA methods will more closely associate
contractor performance with the fees the contractor ultimately receives in payment for the
services it performs. Contracts that do not contain PBA methods might pay the contractor a
fixed fee for providing a good-faith effort4 and not on whether the desired outcome was
achieved.
This review was performed at the Office of Procurement in Oxon Hill, Maryland, and various
program offices in New Carrollton, Maryland, and Washington, D.C., within the IRS Criminal
Investigation Division, Office of the Chief Information Officer, Wage and Investment Division,
Small Business/Self-Employed Division, and Office of the Chief Secretariat during the period
January through September 2008. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




1
  48 C.F.R. ch. 1 (2006).
2
  An award made to a small business where a portion of the procurement was restricted for award only to small
businesses.
3
  Architect-engineer services acquired in accordance with 40 U.S.C. Section 1101 et seq., construction, utility
services, and services that are incidental to supply purchases are exempt from the FAR requirement to use PBA
methods to the maximum extent practicable.
4
  An implied obligation of all contracting parties to treat each other fairly during the performance and enforcement
of a contract.
                                                                                                              Page 2
                              Current Practices Might Be Preventing Use of the
                                Most Advantageous Contractual Methods to
                                        Acquire Goods and Services




                                       Results of Review

We reviewed a sample of 40 contracts–representing a total of approximately $339 million–
negotiated by the IRS with private vendors between February 2007 and January 2008 and
determined that the contract type selected was not improper based on the statements of work
(SOW) and definitions of contract types in the FAR. However, only 2 of the 40 contracts we
reviewed were negotiated on a fully firm fixed-price basis. The majority of the contracts (33 or
83 percent) were negotiated to reimburse contractors for costs, time and materials expenses,
and/or labor hours incurred. These types of contracts present a greater risk of the IRS paying
more funds than necessary. Five of the contracts did contain fixed-price elements in addition to
reimbursing the contractors for some costs or time and materials expenses incurred.
We also found that contract files often did not contain justification for the type of contract
selected and that little coordination or discussion regarding contract type occurred between
program offices and the Office of Procurement Contracting Officers prior to submission of the
SOW.5 Instead, program offices selected the contract type they preferred and developed an
applicable SOW tailored to that particular contract type for submission to the Contracting
Officer. As a result, the SOW received by the Contracting Officer generally did not provide
many other options for the Contracting Officer to consider. We determined from our sample
cases and through discussions with the Contracting Officers that the initial contract type selected
by the program office was routinely used by the Contracting Officer when awarding the contract.
As a result, we believe that the IRS’ current practices of allowing program offices to make the
decision on contract type and to write an SOW that supports the type they have chosen,
independent of any participation or guidance from the Office of Procurement, have increased the
risk that the IRS is paying more for contracts than it should. This practice has also increased the
IRS’ vulnerability to contracting fraud, waste, and abuse because cost-reimbursement contracts,
as opposed to fixed-price contracts that do not include reimbursements to contractors for
expenses, can result in the need for more oversight.
In 2008, the IRS took positive actions to reduce the use of cost-reimbursement contracts,
including the establishment of a Contract Review Board (CRB) that must review and approve
all proposed modernization and information technology requisitions proposed as
cost-reimbursement contracts for more than $1 million. However, given the overall increased
monetary risk to the Federal Government from cost-reimbursement contracts, strong measures

5
  The portion of a contract that describes the actual work to be done by the contractor by means of 1) specifications
or other minimum requirements, 2) quantities, 3) performance dates, 4) time and place of performance of services,
and 5) quality requirements. The SOW is the key element in deciding the selection of a contract type. The level of
detail, clarity, and identification of performance objectives and expectations in the SOW drive all other conditions of
the contract, including pricing structure, contractor’s entitlement to payment, and level of contract administration.
                                                                                                              Page 3
                                 Current Practices Might Be Preventing Use of the
                                   Most Advantageous Contractual Methods to
                                           Acquire Goods and Services


must be in place to reduce the customary use of this contract type. As such, we believe that
improved controls in three key areas related to the coordination and planning of the contract type
prior to the awarding of the contract could facilitate a better review and selection of the contract
type. Specifically, we found that:
       •   Contract files lack appropriate justification for the selection of contract type and
           methodology.
       •   Contract type decisions are being made within the program offices rather than in
           collaboration with Contracting Officers.
       •   Cost-reimbursement contracts are used routinely, and little effort is made to convert
           follow-on work to less risky contract types.

Contract Files Lack Appropriate Justification for the Selection of
Contract Type and Methodology

Contracting Officers did not always justify their contract type selection
In only 9 of the 40 contracts we reviewed, the Contracting Officers’ written determinations
explaining their decisions to award a contract included a rationale as to why a less risky contract
type could not have been selected. In addition, when the Contracting Officers did include
justification of the selected contract type, the justification appeared to use template language and
did not include a comprehensive explanation for the specific contract in question. Twenty-two
of the 40 contracts were awarded as cost-reimbursement contracts and were actually task orders6
issued against a contract. Only two of these contracts contained justification for selecting the
contract type. In the remaining 20 instances, a template was used by the program office to
request the task order. A section in the template required the requestor to indicate the type of
contract using only a checkmark; no further narrative justification was required.
According to the FAR, Contracting Officers are required, with limited exceptions, to include in
each contract file documentation to show why the particular contract type was selected. Due to
the overall increased monetary risk to the Federal Government from cost-reimbursement
contracts, it is imperative that all proposed contracts between the Federal Government and
private vendors be considered first as firm fixed-price types. However, due to the absence of
documentation in the contract file justifying the selection of the contract type, we could not
determine whether the most appropriate contract type was considered. Without this important
consideration of contract type, the IRS cannot be sure that it is contracting for goods and services
in the most effective way possible.



6
    An order for supplies or services placed against an established contract.
                                                                                                  Page 4
                         Current Practices Might Be Preventing Use of the
                           Most Advantageous Contractual Methods to
                                   Acquire Goods and Services


Further, without a full and specific explanation justifying the contract type ultimately selected,
IRS employees and managers might be unable to adequately evaluate previous contract type
decisions when considering future contract awards or exercising option years. For example,
once a contract has concluded or the base year has ended, a new contract might be required to
continue the work on the previous contract, or an option year might be exercised to continue the
work on the existing contract. At the IRS, it is common practice to use the same type of contract
for the new contract or continue with the same type of contract when exercising an option year.
Therefore, if the contract type is not sufficiently evaluated at the time of the new award, the
impact to the Federal Government could be experienced in several future years.

Program offices did not always provide information regarding use of PBA
methods in proposed contracts
According to the FAR, the preferred method of acquiring services is through use of PBA
methods, which incorporate into contracts performance-based aspects such as contractor
incentives and awards for high performance. Although PBA methods are not a contract type, use
of these methods can result in contract types that contain performance-based measures as
opposed to those contract types that result in payment of a fixed fee to the contractor for
providing a good-faith effort and not on whether the desired outcome was achieved. In fact,
Federal Government agencies are directed to use PBA methods to the maximum extent possible,
and priority should be given to negotiating contract types that include performance-based
approaches.
The Office of Management and Budget established a Federal Government-wide goal of
incorporating PBA methods into 45 percent of contracts during Fiscal Year 2007. IRS
procedures require program offices to attest to the appropriateness of using PBA methods in
proposed contracts as part of their submission of the Advance Acquisition Planning Agreement
(AAPA) form to the Office of Procurement. The AAPA form provides details about the planned
procurement and allows the Office of Procurement to plan accordingly.
We requested the AAPA forms for the 40 contracts we reviewed. In 2 of the 40 cases, the task
order had expired and an AAPA submission was not required. The AAPA form or an equivalent
document containing the necessary information was not submitted in 6 (15 percent) of the
40 contracts. In the 32 AAPA forms or equivalents that were submitted, use of PBA methods
was not addressed for 9 (28 percent) of the contracts. We also found that the AAPA form does
not require a justification when the program office submitting the form states that the contract is
not appropriate for PBA methods.
Contracts that lack the incorporation of PBA methods can increase the financial risk to the IRS
by minimizing incentive for the contractor to keep costs low. In addition, similar to contract files
lacking justification regarding the selection of contract type, when contract files do not contain a
determination of the appropriateness of using PBA methods, the IRS cannot be sure that the
contract used contains measures that will enable it to obtain goods and services at the best price.

                                                                                             Page 5
                         Current Practices Might Be Preventing Use of the
                           Most Advantageous Contractual Methods to
                                   Acquire Goods and Services


Recommendation
Recommendation 1: The Director, Procurement, should ensure that the Contracting Officers
document their decisions for awarding a cost-reimbursement contract and/or a contract that does
not use PBA methods with complete, detailed justifications in the contract file.
       Management’s Response: The IRS agreed with the recommendation. The Office of
       Procurement Policy is developing templates for documenting contract type decisions and
       rationale when PBA methods are not used. The templates will be incorporated into the
       Guidebook for Acquisition Practices. Each of the Office of Procurement’s operating
       divisions has implemented an Office Instruction to establish a quality review program
       and internal review procedures to ensure that required documentation is contained in the
       contract files. In addition, in Fiscal Year 2008, the Office of Procurement established a
       CRB in the Office of Information Technology Acquisition that reviews all information
       technology acquisitions meeting established dollar thresholds. The CRB reviews the
       rationale for contract type and any justification for not using PBA methods.

Contract Type Decisions Are Being Made Within the Program Offices
Rather Than in Collaboration With Contracting Officers
For all 40 IRS contracts reviewed, we found that the IRS program office selected the type of
contract prior to sending the requisition to the Office of Procurement. Office of Procurement
personnel stated that the SOWs provided by the program offices are generally directed toward a
certain contract type, typically cost-reimbursement plus a fixed fee. Cost-reimbursement
contracts and SOWs are easier for program offices to create because they do not require the
inclusion of well-defined requirements or knowledge of reasonably detailed specifications,
which sometimes are not known by the program offices when the SOW is prepared. In addition,
the FAR states that the planner should coordinate with the Contracting Officer in all acquisition
planning which would include selecting the contract type.
For 38 of the 40 contract files we reviewed, the IRS was unable to provide documentation of any
discussions of the contract type between the program office initiating the request for service and
the Contracting Officer assigned to oversee the procurement prior to the submission of the SOW
to the Contracting Officer. Therefore, we believe that the program offices are not including the
Office of Procurement sufficiently in their acquisition planning process and do not request
guidance for selecting a contract type appropriate to the circumstances of the acquisition.
Further, the Office of Procurement Contracting Officer assigned to the procurement routinely
accepted the contract type proposed by the program office without further review or discussion
with program office personnel. The Contracting Officer proposed using a different type of
contract than that proposed initially by the program office in only two contracts we reviewed.


                                                                                           Page 6
                         Current Practices Might Be Preventing Use of the
                           Most Advantageous Contractual Methods to
                                   Acquire Goods and Services


In one of those two cases, the Contracting Officer attempted to negotiate a different contract type
with the contractor, but the contractor would not agree to accept the type proposed. The IRS
program office was determined to use that specific contractor. Therefore, the type of contract the
program office proposed was the type selected when the contract was awarded. In the second
case, the Contracting Officer questioned the use of a cost-type contract. However, after
discussions with the program office and upper level Office of Procurement management, the
Contracting Officer selected a cost-type contract that incorporated PBA methods, with the
intention to set fixed prices for some of the elements as soon as it became practical to do so.
While choosing the contract type should be a cooperative effort between the program manager
and the Contracting Officer, ultimately it is the Contracting Officer who has the sole authority to
enter into a contract on the Federal Government’s behalf, including negotiation of contract type.
Contracting Officers receive training on selecting the most appropriate contract type and, as the
FAR stipulates, contracts may be entered into and signed on behalf of the Federal Government
only by Contracting Officers. Contracting Officers have authority to enter into, administer, or
terminate contracts and make related determinations and findings. The FAR does not delegate to
the program offices the authority to make final contract type decisions. Contracting Officers,
however, do not have the technical knowledge of the program office’s needs for the goods or
services. It is the program and project managers who are accountable for the planning,
programming, budgeting, and acquisition of capital assets. They are also critical in developing
accurate Federal Government requirements, defining measurable performance standards, and
managing contractor activities to ensure that intended outcomes are achieved. Because the
selection of the most appropriate contract type requires the combined expertise of Contracting
Officers and the program offices, it is critical that program and project managers consult with the
Contracting Officers and discuss available contract types so that an SOW can be written for the
contract type that would best suit their needs at the most advantageous cost to the Federal
Government.

Recommendation
Recommendation 2: The Deputy Commissioner for Operations Support and the Chief,
Agency-Wide Shared Services, should establish and implement guidance that requires members
of the acquisition team, including Office of Procurement and program office personnel, to meet
and coordinate prior to writing the SOW to ensure that the best value contract type can be
negotiated for the goods and services needed.




                                                                                            Page 7
                         Current Practices Might Be Preventing Use of the
                           Most Advantageous Contractual Methods to
                                   Acquire Goods and Services


       Management’s Response: The IRS agreed with this recommendation. The Office
       of Procurement will continue to emphasize the requirements of acquisition planning as
       prescribed by the FAR and will include a module entitled “Types of Work Statements,
       Appropriate Contract Types and Risk” at their annual Advance Acquisition Planning
       conference to be held in March 2009. In addition, the Deputy Commissioner for
       Operations Support and the Chief, Agency-Wide Shared Services, have issued a
       memorandum emphasizing the use of the “7 steps to Performance-Based Acquisition.”

Cost-Reimbursement Contracts Are Used Routinely, and Little Effort
Is Made to Convert Follow-On Work to Less Risky Contract Types
Our interviews with procurement and program office personnel and review of the 40 contract
files indicated that cost-reimbursement contracts were used routinely because that was the
contract type originally awarded or used on the prior procurement request. Office of
Procurement personnel stated that the program offices often chose cost-reimbursement contracts
because they had used a particular contractor before and/or had developed a good working
relationship with the contractor and wished to maintain that continuity. Using cost-type
contracts also afforded the program offices flexibility in preparing the SOWs because in this type
of contract, technical specifications and requirements can be very broadly defined. Office of
Procurement personnel often do not have the technical expertise to add all necessary
requirements and rewrite an SOW for a different contract type if they have not been involved in
acquisition planning prior to receipt of the SOW. For example, if the program office needs
contractor support for software development and maintenance services for new and existing
systems, Office of Procurement personnel would not know the technical requirements needed to
develop the software or the degree of maintenance services needed. They would not be familiar
enough with the technical aspects of the existing systems to know what specific services are
needed. When requests from program offices lack definitive scope, complete plans, and
specifications, Contracting Officers often use riskier contract types, such as cost-reimbursement
or time and materials.
Office of Procurement officials advised us they believe that decisions by program offices to
concurrently implement a number of projects often negatively affects the Contracting Officers’
ability to select firm fixed-price contract types. Firm fixed-price contracts may be entered into
by the Federal Government only when all funding for the contracted good or service is currently
available. This rarely is the case if the contract is for multiple years because the IRS budget is
approved annually. Consequently, the IRS’ decision to implement many projects at once instead
of concentrating fully on a small number of projects often results in each project being funded
incrementally, or partially, on a year-to-year basis. Thus, many IRS contracts are not eligible for
firm fixed-price awards. Further, if Congress and the President do not agree and approve the
IRS’ budget by October 1 of each year, the IRS often operates under Continuing Resolution
Authority during the first part of the fiscal year. This typically means that the IRS must operate

                                                                                            Page 8
                         Current Practices Might Be Preventing Use of the
                           Most Advantageous Contractual Methods to
                                   Acquire Goods and Services


at the prior year budget levels. New contract requests that could use a less risky contract type
might not be approved in these funding circumstances.
In January 2008, the Office of Procurement established a CRB to review modernization and
information technology requisitions that meet certain criteria prior to award of a contract. All
modernization and information technology requisitions that are proposed as cost-reimbursement
for more than $1 million must obtain approval from the CRB to move forward. Also, the CRB
must approve all modernization and information technology requisitions that are not going to use
PBA methods. In April 2008, the Office of Procurement issued a Policy and Procedure
Memorandum, which states that the Office Director or Branch Chief must initiate through the
Chief, Quality Assurance Branch, an acquisition planning meeting with the Director,
Procurement, and appropriate program personnel for any actions that exceed $10 million and are
other than firm fixed-price. The acquisition planning meeting must occur at a point when
acquisition strategy is being developed. Because the CRB and the new policy were implemented
after the period of our audit, we did not review any actions that might have gone through these
new processes. However, we believe that the CRB and the new policy are good steps toward
reversing the trend of routinely using cost-type contracts and mitigating risks to the Federal
Government.
Office of Procurement personnel stated that they are now using more hybrid contracts, in which
some elements of the contract are firm fixed-price while other elements that do not contain
well-defined specifications are negotiated using time and materials or cost-reimbursement
payment methods. The FAR states that cost-reimbursement contracts should be used only when
uncertainties involved in contractor performance do not permit costs to be estimated with
sufficient accuracy to use any type of fixed-price contract. However, for longer term contracts,
there is an opportunity for the IRS to learn from the early contracts what the actual costs and
requirements are to better gauge future contract needs. For example, the longer a contract for
maintenance services goes on, the better the agency is able to estimate the monthly costs, such as
those associated with routine operations and/or maintenance. This might enable the Contracting
Officer to negotiate subsequent procurement actions as fixed-price. As experience in the course
of a series of contracts or a single long-term contract provides a basis for firmer pricing,
Contracting Officers should avoid extended use of a cost-reimbursement or time and materials
contract.
Eighteen of the 40 contract actions we reviewed contained operations and/or maintenance as part
of the contract. However, the operations and/or maintenance elements of the contract were
fixed-price in only 4 (22 percent) of the 18 contracts. We believe that as work continues on
various systems, projects, and programs, these acquisitions should be routinely reviewed to
determine whether there are elements (e.g., operations and maintenance) that can be awarded on
a fixed-priced basis when a contract for follow-on work is awarded. Hybrid contracts can be a
useful tool to assist the IRS in transitioning contracts that were initially negotiated as
cost-reimbursement into firm fixed-price contracts, thereby reducing the monetary risk to the
Federal Government.
                                                                                            Page 9
                         Current Practices Might Be Preventing Use of the
                           Most Advantageous Contractual Methods to
                                   Acquire Goods and Services


Recommendation
Recommendation 3: The Deputy Commissioner for Operations Support should require the
program offices to routinely review contracts prior to exercising option years or recompeting the
contracts for follow-on work, for the possibility of converting all or portions of the contracts to
less risky contract types with an eventual goal of using a firm fixed-price basis.
       Management’s Response: The IRS agreed in part with this recommendation. The
       IRS agrees that the program offices should routinely review contracts when recompeting
       for follow-on work for potential changes to less risky contract types. However, the IRS
       disagreed with changing the contract type at the time of exercising an option because a
       material contract change could result in possible violation of the Competition in
       Contracting Act. The IRS will look for opportunities to use firm-fixed price contracts on
       an ongoing basis.
       Office of Audit Comment: We would like to clarify our third recommendation. If the
       existing contract type is no longer in the best interest of the Government, the option
       should not be exercised and the contract should be recompeted. We are not suggesting
       that the IRS unilaterally change contract type before exercising option years.




                                                                                           Page 10
                              Current Practices Might Be Preventing Use of the
                                Most Advantageous Contractual Methods to
                                        Acquire Goods and Services


                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the IRS is using appropriate contract
types, as presented in and directed by the FAR,1 to accomplish its mission of tax administration.
To accomplish the objective, we:
I.       Obtained an understanding of the process the IRS uses to select contract types and
         identified controls and potential risks.
         A. Researched the FAR (Chapter 1 – General and Chapter 10 – Treasury) and IRS
            policies and procedures regarding the selection of contract types to gain an
            understanding of the selection process.
         B. Interviewed procurement and program office personnel to confirm the process of
            selecting contract types.
         C. Identified risks in the process of contract type selection and controls in place to
            minimize those risks.
         D. Determined whether the IRS’ contract selection process is designed to achieve the
            most appropriate contracting method.
II.      Determined whether the Office of Procurement completely and accurately documented
         the processes used and decisions made in selecting contract types.
         A. Identified a universe of 16,374 active procurement actions taken from February 2007
            to January 2008 from the Federal Procurement Data System.2 We then divided the
            actions by contract type (firm fixed-price, cost-reimbursement, labor hour, time and
            materials, cost sharing). To conduct our preliminary analysis, we judgmentally
            selected nine of these actions from the different contract types. We used a
            judgmental sample because we did not plan to project our results to the universe. We
            did not assess the reliability of the data contained in the Federal Procurement Data
            System. The data were used for sampling purposes only and did not have any effect
            on accomplishing the objective.




1
 48 C.F.R. ch. 1 (2006).
2
 A system which collects, processes, and disseminates official statistical data on Federal contracting. All Federal
agencies report directly to this system.
                                                                                                            Page 11
                              Current Practices Might Be Preventing Use of the
                                Most Advantageous Contractual Methods to
                                        Acquire Goods and Services


         B. From contract files, identified whether documentation was present that would
            completely and accurately support the contract type selection, using established
            selection criteria.
         C. Interviewed procurement and program office personnel to determine the extent of
            their involvement in the decisions regarding contract type selection.
III.     Determined whether the Office of Procurement is selecting the most appropriate contract
         types to obtain goods and services.
         A. From the 16,374 procurement actions identified, selected 31 additional procurement
            actions using random sampling. From our preliminary review of the contract files,
            we determined that the cost-reimbursement, labor hour, and time and materials
            contract types were the most risky. Therefore, we randomly selected the 31 actions
            from those contract types.
         B. From all 40 contract files (9 from the first sample and 31 from the second), including
            the SOW,3 acquisition plan, and pre-award documentation, documented the
            following:
             1. Contract type (firm fixed-price, cost-reimbursement).
             2. Deliverables expected from the contractor.
             3. Cost arrangements.
         C. Interviewed procurement and program office personnel to document the purpose of
            the contract and what was expected from the contract (e.g., what work was to be
            accomplished, deliverables).
         D. Compared the type of contract selected with the intent of the contract as established in
            the SOW by reviewing the contract files and through discussions with procurement
            and program office personnel. We documented and discussed any discrepancies
            based on established selection criteria.




3
  The portion of a contract that describes the actual work to be done by the contractor by means of 1) specifications
or other minimum requirements, 2) quantities, 3) performance dates, 4) time and place of performance of services,
and 5) quality requirements. The SOW is the key element in deciding the selection of a contract type. The level of
detail, clarity, and identification of performance objectives and expectations in the SOW drive all other conditions of
the contract, including pricing structure, contractor’s entitlement to payment, and level of contract administration.
                                                                                                             Page 12
                       Current Practices Might Be Preventing Use of the
                         Most Advantageous Contractual Methods to
                                 Acquire Goods and Services


                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Alicia Mrozowski, Director
Thomas Brunetto, Audit Manager
Mildred Rita Woody, Audit Manager
Seth Siegel, Acting Audit Manager
Terrey Haley, Lead Auditor
Richard Louden, Senior Auditor
Rashme Sawhney, Auditor
William E. Thompson, Auditor




                                                                                  Page 13
                      Current Practices Might Be Preventing Use of the
                        Most Advantageous Contractual Methods to
                                Acquire Goods and Services


                                                                  Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief, Agency-Wide Shared Services OS:A
Chief, Criminal Investigation SE:CI
Chief Information Officer OS:CIO
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W:EITC
       Chief, Agency-Wide Shared Services OS:A:F
       Chief, Criminal Investigation CI
       Chief Information Officer OS:CIO
       Director, Executive Secretariat C:E
       Director, Office of Legislative Affairs CL:LA
       Director, Procurement OS:A:P




                                                                         Page 14
        Current Practices Might Be Preventing Use of the
          Most Advantageous Contractual Methods to
                  Acquire Goods and Services


                                                   Appendix IV

Management’s Response to the Draft Report




                                                           Page 15
Current Practices Might Be Preventing Use of the
  Most Advantageous Contractual Methods to
          Acquire Goods and Services




                                                   Page 16
Current Practices Might Be Preventing Use of the
  Most Advantageous Contractual Methods to
          Acquire Goods and Services




                                                   Page 17
Current Practices Might Be Preventing Use of the
  Most Advantageous Contractual Methods to
          Acquire Goods and Services




                                                   Page 18
Current Practices Might Be Preventing Use of the
  Most Advantageous Contractual Methods to
          Acquire Goods and Services




                                                   Page 19
